July 28, 2010


DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

VICE PRESIDENTS, AREA OPERATIONS

SUBJECT: Audit Report – Efficiency of Retail Customer Service Operations
         (Report Number MS-AR-10-004)

This report presents the results of our self-initiated audit of Retail Customer Service
operations1 (Project Number 09RO028MS000). Our objective was to assess the overall
efficiency of Retail Customer Service operations. This audit addresses operational risk.
See Appendix A for additional information about this audit.

Current economic conditions, along with increased competition from electronic
communications, has significantly reduced mail volume. Although management has
reduced overall Retail Customer Service workhours by approximately 56 million since
fiscal year (FY) 2006, they have not yet fully adjusted workhours in response to
changes in workload. The overall operational efficiency rate (earned workhours 2 divided
by actual workhours) has remained unchanged at approximately 84 percent since 2006.
The FY 2009 national goal was 97.7 percent.

Conclusion

Opportunities exist to reduce Retail Customer Service workhour usage by 14.3 million
based on FY 2009 usage. This would allow the U.S. Postal Service to increase
operational efficiency to approximately 93 percent3 and achieve cost reductions of
613,695,129 million based on workhour savings for 1 year. See Appendix D for the
monetary impact calculation.



1
  Retail Customer Service (also referred to as Function 4) operations include customer service activities at post
offices, stations, and branches for automated, mechanized, manual, and post office box distribution of mail, post
office window, and vending equipment services and miscellaneous administrative and Central Forwarding System
operations.
2
  Earned workhours are Postal Service-developed standard time rates applied to operations for specific mail
processing tasks. Operations are actions Postal Service employees must perform to process mail, among other
activities.
3
  The lowest of the FY 2009 Retail Customer Service efficiency performance goals established by area offices. We
chose this efficiency rate as we believe it to be conservative and achievable.
Efficiency of Retail Customer Service Operations                                                    MS-AR-10-004



We identified four opportunities for improving the efficiency of Retail Customer Service
operations and realizing additional workhour savings. These include:

       Best Practices for Retail Customer Service Operations.
       Business Mail Acceptance at Post Offices, Stations, and Branches.
       Carrier Sequence Barcode Sorter (CSBCS) Machine Usage.
       Workforce Flexibility.

Opportunities Exist to Improve Retail Customer Service Efficiency

The Postal Service could reduce Retail Customer Service workhour usage by improving
efficiency. We identified four areas requiring improvement in order to realize additional
workhour reductions.

Implementing Best Practices

Postal Service officials have implemented a variety of best practices for Retail Customer
Service operations. These include managers and supervisors:

       Using performance management tools including Customer Service Variance
        (CSV),4 Customer Service Adjust Work (CSAW),5 and Window Operations
        Survey (WOS)6 to effectively manage the workload.

       Surveying units at critical times during the day to understand the workflow and
        determine how best to manage the workload.

       Ensuring employees’ work schedules align with the workflow.

       Coordinating with the districts’ Customer Service Operations managers to
        periodically evaluate operational efficiency by conducting on-site reviews of
        workhours and workload.

       Coordinating with the districts’ Customer Service Operations and Human
        Resources managers to re-assign excess employees to facilities with sufficient
        workload to support the workhours.




4
  A management tool that provides earned workload using nationally established factors. This model analyzes the
number of employees, workhours, workload, and productivity performance using automated data sources. Managers
and supervisors can use the reports generated from this model to right-size the number of employees needed to
support the earned workload.
5
  CSAW is designed to reflect the daily impacts of workload changes. This tool assists managers and supervisors
with Retail Customer Service scheduling. Using data from the Time and Attendance Collection System and Retail
Data Mart along with the manual input of daily volumes, this tool provides the data necessary to balance actual
workhours with actual workload.
6
  WOS is designed to identify opportunities to increase revenue, match workhours to earned workload and assist with
budget forecasting.




                                                         2
Efficiency of Retail Customer Service Operations                                                  MS-AR-10-004




Management did not implement these best practices effectively at all facilities. The
high-performing units we visited were using these best practices, while the under-
performing units we visited were not. For example, managers and supervisors at the
under-performing units were not using performance management tools such as CSV,
CSAW, and WOS to manage the workload, opting instead to rely on their experience.
Effectively implementing best practices at all units would reduce workhours and improve
operational efficiency. See Appendix B for our detailed analysis of this topic.

Business Mail Acceptance at Post Offices, Stations, and Branches

The Postal Service has 6,675 (74 percent) of the 9,027 business mail acceptance
facilities located at post offices, stations, and branches. These facilities do not always
have sufficient workloads to match workhours,7 but are kept open for the customers’
convenience. In addition, acceptance employees at post offices, stations, and branches
are not always proficient at business mail acceptance because they perform the
functions infrequently.

While some district offices have consolidated business mail acceptance operations to
eliminate redundant service and reduce costs, others have yet to explore this
opportunity. The Postal Service should require district offices to explore opportunities to
consolidate business mail acceptance facilities at post offices, stations, and branches to
eliminate redundant service without hindering customers’ convenience. Consolidating
operations would potentially allow management to re-deploy employees to facilities
where there is sufficient workload to support the workhours and assign the most
proficient employees to the remaining acceptance facilities. See Appendix B for our
detailed analysis of this topic.

CSBCS Machines Usage

The Postal Service purchased over 3,700 CSBCS machines in the early to
mid-1990s (when mail volumes were projected to increase) to accommodate
decentralized mail processing in associate offices. There were 1,001 CSBCS machines
in use as of May 2010.

Employees charged approximately 1.9 million workhours to Retail Customer Service
operations in FY 2009 for processing mail on CSBCS machines. Declining mail volume
and under-utilization of Delivery Barcode Sorter (DBCS) machines at mail processing
plants,8 led the Postal Service to begin an initiative to centralize mail processing at the
plants and reduce the number of CSBCS machines nationwide. This effort should help

7
  Workhours used by employees who accept and verify mailings and perform other tasks associated with the
processing of mailings accepted at non-BMEU units are charged to Retail (Function 4) operations.
8
  OIG Report, Capital Metro Area: Delivery Barcode Sorters Equipment Utilization Report Number DR-AR-10-002,
dated May 7, 2010), reported that declining mail volume has resulted in decreased use of DBCS machines in the
Capital Metro Area, resulting in DBCS excess capacity ranging from 50 to 57 percent.




                                                       3
Efficiency of Retail Customer Service Operations                                                MS-AR-10-004



reduce workhour usage and improve operational efficiency. The U.S. Postal Service
Office of Inspector General (OIG) recently completed an audit of CSBCS machines9
and, because of the headquarters’ initiative and other potential mail processing
changes, we are not making recommendations in this report regarding this issue. See
Appendix B for our detailed analysis of this topic.

Workforce Flexibility

Some union contract provisions limit the ability of managers and supervisors to
efficiently manage the workload. The OIG is currently reviewing this issue in a separate
audit10; therefore, we are not making recommendations in this report regarding this
issue. See Appendix B for our detailed analysis of this topic.

We recommend the vice president, Delivery and Post Office Operations, coordinate with
the vice presidents, Area Operations, to:

1. Implement best practices for Retail Customer Service operations at all facilities.

2. Explore opportunities to consolidate business mail acceptance operations at post
   offices, stations, and branches.

3. Periodically evaluate operating efficiency by assessing performance against
   productivity targets and adjusting resources in response to workload changes.

4. Re-deploy employees, as appropriate, to facilities where there is sufficient workload
   to support the workhours.

Management’s Comments

Management agreed with our findings and recommendations. Management agreed with
our estimated $613.7 million of monetary impact in subsequent correspondence.
Management stated that they are in the process of implementing the Retail Customer
Service business plan and variance initiatives, which include implementing best
practices and additional tools for field use, including an automated Postal Service Form
1994, Employee Work Schedule,11 Mail Arrival Profile, and Event Tracker. Management
plans to complete the Retail Customer Service business plan and variance initiatives by
October 2010.

Management also stated that they will begin to explore opportunities to consolidate
business mail acceptance operations at post offices, stations, and branches with a
9
  OIG Report, Continuing Use of Carrier Sequence Barcode Sorter Machines at Delivery Units (Report Number DR-
AR-10-004, dated March 31, 2010), reported opportunities to reduce 10 CSBCS machines at the Mid-Carolinas
District. 
10
   Postal Service Work Rules, Project Number 10YG009HR000.
11
   Management’s response refers to Form 1194, not 1994. Management advised us that the reference to Form 1194
is a typo; Form 1994 is correct.




                                                      4
Efficiency of Retail Customer Service Operations                              MS-AR-10-004



target implementation date of October 2010. Finally, management indicated that they
will continue to focus on the full implementation and effective utilization of CSAW for
improvements in workload-based scheduling. See Appendix E for management’s
comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to our recommendations, and
management’s corrective actions should resolve the issues identified in the report. 

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert Mitchell, director, Sales
and Service, or me at 703-248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Corporate Audit Response Management




                                                   5
Efficiency of Retail Customer Service Operations                                                    MS-AR-10-004



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service uses Labor Distribution Codes (LDCs) to compile labor utilization
and other operational and financial information by functional category. LDCs 40 through
49 capture Retail Customer Service operations at post offices, stations, and branches.
Retail Customer Service operations include both supervisory and nonsupervisory
activities related to automated and manual distribution of mail, retail window and
vending equipment services, and miscellaneous administrative and Computerized
Forwarding System operations.

LDCs 43, 45, and 48 accounted for over 84 percent of all retail customer service
workhour usage in FYs 2008 and 2009. See Table 1.

                       Table 1. Retail Customer Service Workhour Usage by LDC12
                                                            FY 2008                         FY 2009

                                                                    LDC                               LDC
                                                                 Workhours                         Workhours
                                               Workhours            as a          Workhours           as a
     LDC             Description
                                                (Actual)         Percentage        (Actual)        Percentage
                                                                  of Total                          of Total
                                                                 Workhours                         Workhours

             Unit Distribution –
      41                                          5,186,761               3%        3,798,970                2%
             Automated
      42     Customer Services                      142,366               0%        1,467,445                1%
      43     Unit Distribution – Manual          53,291,276              28%       44,761,202              27%
      44     Post Office Box Distribution        13,615,509               7%       11,377,425                7%
      45     Window Services                     57,543,697              30%       52,418,935              31%
      46     Vending Equipment                      765,455               0%          214,117                0%
             Associate Office (CAG H-
      47                                          8,131,700               4%        7,019,584                4%
             L)13
      48     Administrative/Miscellaneous        49,639,414              26%       43,692,378              26%
             Computerized Forwarding
      49                                          3,963,699               2%        3,411,186                2%
             System
     Total                                     192,279,877              100%      168,161,242             100%
Source: eFLASH

Although management has reduced overall Retail Customer Service workhour usage by
approximately 56 million workhours since FY 2006, the overall operational efficiency

12
  We excluded LDC 40, Supervision, and LDC 49, Training, because they are not subject to the efficiency analysis.
13
  Cost Ascertainment Group (CAG) is a method of classifying post offices based on revenue generated. See
Handbook F-101, Field Accounting Procedures, page 386, October 2009.




                                                        6
Efficiency of Retail Customer Service Operations                                             MS-AR-10-004



rate (earned workhours divided by actual workhours) has remained unchanged at
approximately 84 percent since FY 2006. See Table 2.

                                    Table 2. Overall Retail Customer Service
                                                Efficiency Rate

                               Fiscal      Actual           Earned       Efficiency
                                Year      Workhours        Workhours        Rate


                               2006       223,786,365      188,576,623         84%

                               2007       220,308,144      185,054,867         84%

                               2008       192,279,877      152,398,210         79%
                               2009       168,161,242      140,467,589         84%
           Source: FY 06-07, www.blue.usps.gov/opsplanning; FY 08-09, eFlash and CSV data.


OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the overall efficiency of Retail Customer Service
operations.

To accomplish our objective we:

          Interviewed the manager of Customer Service Standardization at Postal Service
           Headquarters to obtain information on the policies and procedures for matching
           workhours to workload, improving performance, and developing efficiency
           information on operating units.

          Reviewed applicable policies and procedures and other pertinent documentation.

          Obtained necessary access to Postal Service systems.

          Obtained actual and earned workhours by area for FYs 2005 through 2009.

          Obtained a universe of Postal Service CAG A-G retail units14 with their
           corresponding FY 2009 actual and earned workhours, headcount information,
           overtime hours, and revenue information.

          Eliminated from the universe those units with only one Retail Customer Service
           employee.

          Computed the opportunity workhours (actual workhours less earned workhours)
           for each unit remaining in the universe.
14
     Units for which the Postal Service computes earned workhours.




                                                          7
Efficiency of Retail Customer Service Operations                                                MS-AR-10-004




        Computed the efficiency rate for each unit remaining in the universe.

        Judgmentally selected and visited seven high-performing and average units in
         five districts to observe operations and interview employees to determine the
         reasons for their success and developed best practices. See Appendix C.

        Judgmentally selected and visited 12 underperforming units in the five districts to
         observe operations and interview employees to determine the reasons for
         underperformance. See Appendix C.

        Discussed the best practices and underperforming units with Postal Service
         Headquarters Delivery and Post Office Operations officials to determine what
         initiatives they have in place or plan to implement to improve performance.

        Identified workhours savings that are achievable if the underperforming units
         adopt the best practices implemented at the high- and average-performing units.

We conducted this performance audit from September 2009 through July 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on June 10, 2010, and
included their comments where appropriate.

We relied on data obtained from eFLASH15 and CSV. We did not audit the eFLASH and
CSV, but interviewed knowledgeable officials about the data and performed reasonable
tests to support our data reliance.




15
  A weekly reporting management system that combines data from Delivery, Mail Processing, Employee Relations,
Labor Relations, and Finance.




                                                      8
      Efficiency of Retail Customer Service Operations                                       MS-AR-10-004



      PRIOR AUDIT COVERAGE

                                               Final
                                                              Monetary
  Report Title         Report Number          Report                                  Report Results
                                                               Impact
                                               Date
Assessment of          NO-MA-10-001         6/11/2010        $744 million   Management had not yet fully
Overall Plant                                                               adjusted workhours in response
Efficiency 2010                                                             to declining mail volume resulting
                                                                            from poor economic conditions, nor
                                                                            achieved all possible efficiencies in
                                                                            mail processing operations.

                                                                            We identified opportunities to
                                                                            eliminate nearly 16.2 million
                                                                            workhours by the end of FY 2012,
                                                                            saving $744 million based on
                                                                            workhour savings for 1 year. We
                                                                            recommended reducing 16.2
                                                                            million workhours by FY 2012 and
                                                                            periodically evaluating operating
                                                                            efficiency by assessing
                                                                            performance.

                                                                            Management agreed with the
                                                                            findings, recommendations, and
                                                                            monetary impact.




                                                         9
     Efficiency of Retail Customer Service Operations                                      MS-AR-10-004



                                              Final
                                                             Monetary
  Report Title        Report Number          Report                                 Report Results
                                                              Impact
                                              Date
Continuing Use of     DR-AR-10-004         3/31/2010         $3 million   Although a business case exists for
Carrier Sequence                                                          continued use of CSBCS machines
Barcode Sorter                                                            in some associate offices in the
Machines at                                                               Mid-Carolinas District, we
Delivery Units                                                            concluded the offices can reduce
                                                                          10 machines. While the district
                                                                          previously reduced the number of
                                                                          CSBCS machines by 11 during the
                                                                          audit, it had not yet fully evaluated
                                                                          moving more letter mail to the
                                                                          DBCS machines in the plants. We
                                                                          estimated the district could reduce
                                                                          mail processing and maintenance
                                                                          workhours, and save more than $3
                                                                          million as a result of eliminating 10
                                                                          CSBCS machines.

                                                                          We recommended the district
                                                                          manager, Mid-Carolinas Customer
                                                                          Service District, reduce 10 CSBCS
                                                                          machines and the associated
                                                                          workhours at selected associate
                                                                          offices. We also recommended that
                                                                          management evaluate mail
                                                                          processing operations on a
                                                                          recurring basis to identify further
                                                                          opportunities for cost savings and
                                                                          greater mail processing
                                                                          efficiencies.

                                                                          Management agreed with the
                                                                          findings, recommendations, and
                                                                          monetary impact. They will
                                                                          discontinue using the 10 CSBCS
                                                                          machines by June 19, 2010, and
                                                                          will evaluate mail processing
                                                                          operations on a recurring basis for
                                                                          cost-savings opportunities and
                                                                          greater mail processing
                                                                          efficiencies.




                                                        10
      Efficiency of Retail Customer Service Operations                                          MS-AR-10-004



                                               Final
                                                               Monetary
   Report Title        Report Number          Report                                    Report Results
                                                                Impact
                                               Date
City Delivery          DR-AR-10-002         12/18/2009         $21 million     The Napoleon Street Station was
Efficiency                                                                     using more workhours than
                                                                               necessary to deliver the mail.
                                                                               By adjusting operations, the
                                                                               Napoleon Street Station’s overall
                                                                               productivity would increase, saving
                                                                               approximately $2.1 million
                                                                               annually, or $21 million over 10
                                                                               years.

                                                                               We recommended periodically
                                                                               evaluating operating efficiency and
                                                                               staffing at the Napoleon Street
                                                                               Station to determine whether
                                                                               further workhour adjustments are
                                                                               necessary based on workload,
                                                                               reinforcing Postal Service policies
                                                                               and procedures for supervising city
                                                                               and street operations in delivery
                                                                               units and eliminating time-wasting
                                                                               practices as appropriate.

                                                                               Management agreed with the
                                                                               findings and recommendations.
Assessment of          NO-MA-09-002         5/8/2009          $969.5 million   Management had not yet fully
Overall Plant                                                                  adjusted workhours in response to
Efficiency                                                                     changes in workload, nor achieved
                                                                               all possible efficiencies in mail
                                                                               processing operations provided by
                                                                               opportunities such as introducing
                                                                               additional automation.

                                                                               We identified opportunities to
                                                                               eliminate nearly 23 million
                                                                               workhours based on FY 2008
                                                                               usage, saving $969.5 million based
                                                                               on workhour savings for 1 year.

                                                                               Management agreed with the
                                                                               recommendations and monetary
                                                                               impact.




                                                         11
     Efficiency of Retail Customer Service Operations                                   MS-AR-10-004



                                              Final
                                                             Monetary
  Report Title        Report Number          Report                              Report Results
                                                              Impact
                                              Date
Function 4            MS-AR-08-002         11/16/2007         None      Management did not complete all
Business Plan                                                           the scheduled Function 4 on-site
Process                                                                 reviews, did not always implement
                                                                        review recommendations at units
                                                                        with completed reviews, and did
                                                                        not always update workload
                                                                        information. We estimated the
                                                                        annual value of recommended
                                                                        budget reductions in units that did
                                                                        not implement the on-site review
                                                                        recommendations at approximately
                                                                        $2.7 million.

                                                                        We recommended adhering to the
                                                                        Function 4 on-site review schedule,
                                                                        ensuring that qualified teams are
                                                                        available to conduct the targeted
                                                                        reviews as scheduled, monitoring
                                                                        adherence to the approved
                                                                        Function 4 business plans, and
                                                                        annually updating workload data.

                                                                        Management did not indicate
                                                                        agreement or disagreement with
                                                                        our findings and recommendations.
                                                                        However, their planned initiatives
                                                                        were responsive to the
                                                                        recommendations.




                                                        12
Efficiency of Retail Customer Service Operations                                                   MS-AR-10-004



                           APPENDIX B: ADDITIONAL INFORMATION

Opportunities Exist to Improve Retail Customer Service Efficiency

Opportunities exist to reduce Retail Customer Service workhour usage by 14.3 million
based on FY 2009 usage. This would allow the Postal Service to increase operational
efficiency to approximately 93 percent16 and achieve a cost avoidance of $613.7 million
based on workhour savings for 1 year. We identified four opportunities to improve
efficiency and realize additional workhour savings.

Implementing Best Practices

In order to determine best practices, we obtained a universe of all retail units along with
their actual, earned, and overtime workhours and number of employees for FY 2009.
We eliminated from the universe those units with only one employee. We then
computed the efficiency rate for each of the 8,014 facilities remaining in the universe
and ranked them based on their efficiency rate. We found that 3,201 of the 8,014 units
in the universe performed at or above the 93 percent efficiency performance goal while
the remaining 4,813 units did not achieve the 93 percent efficiency rate.

We judgmentally selected seven units from those that performed at or above 93 percent
and 12 units from those that did not achieve the 93 percent efficiency rate. We visited
these facilities to interview officials and observe operations and drew conclusions
regarding best practices based on our interviews and observations. See Appendix C for
a list of the field offices we visited.

We noted the following five best practices at the seven facilities we visited in the Great
Lakes and Northeast Areas.




16
  The lowest of the FY 2009 Retail Customer Service efficiency performance goals established by area offices. We
chose this efficiency rate as we believe it to be conservative and achievable.




                                                       13
  Efficiency of Retail Customer Service Operations                                     MS-AR-10-004




                                    Five Identified Best Practices
1. Using Performance Management Tools.
Managers and supervisors at these units were using performance management tools such as CSV,
CSAW, and WOS to determine workload and associated workhours. Most of the managers and
supervisors were trained on the use of these tools and use them on a regular basis. These tools
provide effective methods for the managers and supervisors to closely monitor and evaluate
workhours and align them with the workload and workflow at units.
2. Surveying units at critical times during the day to understand the workflow and determine
    how best to manage the workload.
Management was monitoring operations daily and worked proactively to manage the workload. For
example, an official at the Fort Dearborn Station in the Chicago District indicated that he makes
periodic visits to the dock every day to obtain an understanding of the mail profile. He uses this
information to decide how best to align the workforce to handle the workload. He also indicated that
he meets with his supervisors at critical points during the day to discuss operations and make
adjustments to ensure resources are aligned with the workflow.
3. Ensuring employees’ work schedules align with the workflow.
Management continuously monitored operations to understand the workload and available resources,
working to ensure employees’ work schedules aligned with the workflow. For example, officials at the
Fort George Station in the New York District have worked with employees to voluntarily agree to
change their work schedules to better align with the workload. In some instances, officials have
rescinded and re-bid positions in order to better align employees’ schedules with the workflow.

4. Coordinating with the district’s Retail Customer Service Operations officials to periodically
   evaluate operational efficiency by conducting on-site reviews of workhours and workload.

The managers and supervisors were coordinating with the districts’ Retail Customer Service
Operations Coordinators to periodically evaluate operational efficiency by conducting on-site reviews.
The Chicago District performed on-site reviews that were used to assist the stations to better align
workhours to workload. For example, in FY 2009, officials at Fort George Station and Fort Dearborn
Station performed on-site reviews to assist the stations to better align workhours to workload.
 5. Coordinating with the district’s Customer Service Operations and Human Resources
    managers to assign excess employees to facilities with sufficient workload to support the
    workhours.
The managers worked with the districts’ Customer Service Operations and Human Resources
managers to ensure that excess employees were reassigned to facilities where there was sufficient
workload to match their workhours. For example, the Fort Dearborn Station manager was able to
reduce clerk positions through attrition and reassignments in coordination with district officials.


  We noted several instances where practices in the under-performing group differed from
  those in the high-performing group. Examples include:




                                                     14
Efficiency of Retail Customer Service Operations                                                 MS-AR-10-004



        Some managers and supervisors not using performance management tools such
         as CSV, CSAW, and WOS to manage the workload, opting instead to rely on
         their experience.

        The 12 under-performing facilities did not perform on-site reviews to better align
         workhours to workload. For example, managers and supervisors were not taking
         action to move employees to other units or stations when workload did not justify
         workhours.

        Managers and supervisors not adjusting employees’ work schedules to align with
         the workflow.

        Managers and supervisors not always proactively managing the workload.

In other instances, officials from the under-performing units cited obstacles beyond their
control that hindered the efficiency of unit operations. Some of these obstacles are:

        Officials stated they did not have formal training on management tools such as
         CSV, CSAW, and WOS.

        The lack of continuity of the management team. Under-performing units have had
         several managers and supervisors during a short time span.

Business Mail Acceptance at Post Offices, Stations, and Branches

The Postal Service has 6,675 (74 percent) of the 9,027 business mail acceptance
facilities located at post offices, stations, and branches. These facilities do not always
have sufficient workload to match workhours,17 but they are kept open for the
customers’ convenience. In addition, acceptance employees at post offices, stations,
and branches are not always proficient because they perform acceptance functions
infrequently.

Postal Service Headquarters Business Mail Acceptance officials developed a Business
Mail Entry Centralization Standard Operating Procedure (SOP) in November 2008. The
purpose of the SOP is to provide guidance and instruction regarding centralization of
Business Mail Entry Units and Business Mail Acceptance operations within an area or
district. The process has three phases: Feasibility Study and Review; Business Mail
Entry Centralization Proposal and Disposition; and Implementation. Management must
base their decision of whether to consolidate access points on a comprehensive
business case, with the vice president, Area Operations, making the final decision.

We visited the Chicago, Central Illinois, and Northern Illinois Districts in the Great Lakes
Area and the Capital District in the Capital Metro Area to determine whether officials
17
  Workhours used by employees who accept and verify mailings and perform other tasks associated with the
processing of mailings accepted at non-BMEU units are charged to Function 4 operations.




                                                      15
Efficiency of Retail Customer Service Operations                                                      MS-AR-10-004



have explored opportunities to consolidate business mail acceptance operations in their
districts. While officials in the Chicago and Capital Districts have made significant
progress in consolidating business mail acceptance operations, officials in the Central
Illinois and Northern Illinois Districts have not yet taken advantage of this opportunity.
Central Illinois District officials stated they have not explored opportunities to
consolidate business mail acceptance operations at post offices, stations, and branches
because they believe customers would be dissatisfied with the change and the post
offices would lose revenue. Northern Illinois District officials stated that they performed
some consolidations but temporarily stopped because of instructions from
headquarters.

The Postal Service should require all district offices to explore opportunities to
consolidate business mail acceptance facilities at post offices, stations, and branches to
eliminate redundant service without hindering customer convenience. Consolidating
operations would allow officials to re-deploy excess employees to facilities where there
is sufficient workload to support the workhours and assign the most proficient
employees to the remaining acceptance facilities.

CSBCS Machine Usage

Initially, the Delivery Point Sequencing18 strategy relied exclusively on centralized
processing at mail processing centers using DBCS machines. As mail volumes were
projected to increase, the Postal Service purchased over 3,700 CSBCS machines in the
early to mid-1990s to accommodate decentralized processing in associate offices.

Headquarters Operations Technical and Systems Integration Support personnel began
an initiative during FY 2009 to reduce the number of CSBCS machines nationwide
because of underutilization of DBCS machines and declining mail volume. Specifically,
mail volume decreased from 213.1 billion in FY 2006 to 177 billion pieces in FY 2009 (a
17 percent decline). This volume decline continued through Quarter 2 of FY 2010, with
volume declining by 5.9 billion pieces (6.3 percent) from the same period during the
prior year.

As part of the initiative, area and district personnel have been encouraged to explore
opportunities to reduce the number of CSBCS machines in use, especially at associate
post offices within 50 miles of processing and distribution centers (plants). In FY 2009,
employees charged approximately 1.9 million workhours to Retail Customer Service
Operations for processing mail on CSBCS machines. As of May 2010, there were 1,001
CSBCS machines in use. The initiative to centralize mail processing at the plants and
reduce CSBCS machines should help reduce workhour usage and improve operational
efficiency. The OIG recently completed an audit of CSBCS machines and, because of
the headquarters’ initiative and other potential mail processing changes, we are not
making any recommendations in this report regarding this issue.
18
   The process of sorting barcoded mail into the carrier’s walk sequence to eliminate manual sorting before beginning
street delivery.




                                                         16
Efficiency of Retail Customer Service Operations                            MS-AR-10-004



Workforce Flexibility

Some union contract provisions limit the ability of managers and supervisors to
efficiently manage the workload. For example, managers and supervisors at facilities
within the same geographical area are not allowed to share full-time regular employees.
In addition, units with 200 or more work years of employment can no longer be staffed
with Part-Time Flexible (PTF) employees; they must be staffed with regular employees.
Management converted all PTFs employed at units with 200 or more work years to full-
time status effective December 1, 2007. Further, the contract provisions allow for a
certain percentage of casual employees at these facilities, but on a limited basis.
Managers and supervisors need greater workforce flexibility to manage the workload.
The OIG is currently reviewing this issue in a separate audit; therefore, we are not
making any recommendations in this report regarding this issue.




                                                   17
Efficiency of Retail Customer Service Operations                                   MS-AR-10-004




                            APPENDIX C: FIELD OFFICES VISITED

                                       High-Performing Sites
                                                                                 FY 2009
          Area                District                   Field Office           Efficiency
                                                                                   Rate
                                               Fort Dearborn                          93%
                        Chicago
     Great Lakes                               Jefferson Park Station                107%
                        Central Illinois       Flossmoor                             104%
                        New York               Fort George Station                   105%
                                               Staten Island                         106%
                        Triboro
     Northeast                                 Flushing                              101%
                        Northern New
                                               Newark                               137%
                        Jersey

                                      Under-Performing Sites
                                                                                 FY 2009
          Area                District                  Field Office            Efficiency
                                                                                   Rate
                                               Capital Heights                         53%
     Capital Metro      Capital                Capital District                        40%
                                               Ward Place                              31%
                                               Ashburn                                 44%
     Great Lakes        Chicago
                                               Roseland                                70%
                        Triboro                Flushing Main Post Office               75%
     Northeast                                 NYC – Hanover                           68%
                        New York
                                               Grand Central                           50%
                                               Northside Carrier Facility              65%
                                               North Atlanta Carrier Facility          66%
     Southeast          Atlanta
                                               Midtown                                 63%
                                               Martech Delivery                        68%




                                                   18
Efficiency of Retail Customer Service Operations                                                      MS-AR-10-004




                                 APPENDIX D: MONETARY IMPACT

                              Potential Sources of Workhour Savings

                                                                                  Unrecoverable
              Source of Workhour                  Number of           Labor        Questioned
                     Savings                      Workhours           Rate           Costs19
             Employee Attrition                   11,515,000          $44.26       $509,653,900
             Reduction in Overtime                 2,750,958          $37.82        104,041,229
                      Total                       14,265,958            -          $613,695,129

To calculate the potential workhour savings and monetary impact, we obtained a
universe of all retail units along with their actual, earned, and overtime workhours and
headcount information for FY 2009. We eliminated from the universe those units with
only one employee.

Of the 8,014 units remaining in the universe, 3,201 performed at or above the 93
percent operational efficiency rate while the remaining 4,813 did not. We computed
potential workhour savings for each of the 4,813 units by deducting what actual
workhours would have been at 93 percent efficiency from actual incurred workhours.
We determined that the Postal Service could reduce Retail Customer Service workhour
usage by 14,265,958 based on FY 2009 usage.

We then determined that management could eliminate 11,515,000 workhours (or 6,580
full-time equivalent [FTE] positions) through attrition by dividing potential workhour
savings for each of the 4,813 units by 1 man-year (1,750 hours). Retail Customer
Service operations has approximately 95,000 employees. At a 5 percent attrition rate,20
we estimated that 4,750 employees would retire each year. As of October 2009, the
Postal Service had about 25,000 Retail Customer Service employees eligible to retire
within the next 5 years. In addition, the Postal Service could eliminate approximately
12,000 non-career status and casual staff existing on the rolls as of October 2009.
These positions can be eliminated because they are not subject to the no reduction-in-
force clause in the union agreement.21 At a fully loaded labor rate of $44.2622 per hour,
the Postal Service could achieve a cost savings of $509,653,900 each year if
management does not hire new employees to backfill positions vacated through attrition
and re-deploys excess employees to facilities where there is sufficient workload to
support the workhours.


19
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
20
   GAO-10-455, U. S. Postal Service: Strategies and Options to Facilitate Progress toward Financial Viability, April
2010, pages 15 -17 addresses the Postal Service’s attrition rate.
21
   Handbook EL-912, (May 2008) Agreement between United States Postal Service and American Postal Workers
Union, AFL-CIO, 2006-2010. According to Article 6, No Layoffs or Reduction in Force, non-protected employees are
subject to the reduction in force provisions.
22
   Postal Service Workhour Rates for Fiscal Years 2009-2011.




                                                         19
Efficiency of Retail Customer Service Operations                           MS-AR-10-004



We also determined that the remaining 2,750,958 workhours that could not be
converted to FTE positions could be eliminated through overtime reductions. In FY
2009, the Postal Service incurred 9.8 million overtime workhours for Retail Customer
Service operations — approximately 5.83 percent of 168 million total workhours.
Several under-performing units used significant amounts of overtime workhours. At an
overtime labor rate of $37.8223 per hour, the Postal Service could achieve a cost
savings of $104,041,229 each year if management eliminated unjustified overtime.




23
     Postal Service Workhours Rates for Fiscal Year 2009-2011, page 2.




                                                         20
Efficiency of Retail Customer Service Operations            MS-AR-10-004




                        APPENDIX E: MANAGEMENT’S COMMENTS




                                                   21
Efficiency of Retail Customer Service Operations        MS-AR-10-004




                                                   22
